GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

May 14, 2021
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

Re:

No. 20-1364, BofI Holding, Inc. v. Hous. Mun. Emps. Pension Sys.

Dear Mr. Harris,
I represent respondent in the above-captioned matter. The petition for a writ
of certiorari in this case was filed on March 26, 2021, and respondent waived the right
to respond on April 13, 2021. The Court called for a response on April 28, 2021,
setting a due date of May 28, 2021. Respondent respectfully requests, under Rule
30.4 of the Rules of this Court, a 28-day extension of time to and including June 25,
2021, within which to file a brief in opposition. This extension is necessary because
the attorneys with principal responsibility for preparation of the brief have been
heavily engaged with the press of previously assigned matters.
Please let me know if you require any further information. Thank you very
much for your time and assistance in this matter.

Very truly yours,

Eric F. Citron

cc:

Counsel for Petitioners

(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

